HHS/OIG-Audit--"Summary Report on Indirect Cost Reviews at Universities
and Nonprofit Organizations for Fiscal Years 1992 and 1993, (A-09-94-01020)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Summary Report on Indirect Cost Reviews at Universities and Nonprofit
Organizations for Fiscal Years 1992 and 1993," (A-09-94-01020)
April 20, 1995
Complete Text of Report is available in PDF format
(2.68 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes the results of 17 audits of indirect cost rate
proposals completed in Fiscal Years 1992 and 1993. The Office of Inspector General
(OIG) identified 180 findings with adjustments totaling $507 million. Using
the OIG findings, the Division of Cost Allocation (DCA) negotiated indirect
cost rates which were as much as 34 percentage points lower than the rates initially
proposed. Based on the results of completed negotiations at all 17 institutions,
DCA credited the OIG with the Federal share of actual savings (funds put to
better use) of $179 million. Because of continuing interest in and concern with
indirect costs and the continued specter of staff shortages in both DCA and
OIG, future plans are to; (1) identify high risk areas and concentrate efforts
in those areas, (2) encourage universities to improve the systems they use to
prepare indirect cost proposals, and (3) identify improvements that will strengthen
Office of Management and Budget Circular A-21.